No. 20-649

In the Supreme Court of the United States
LEVEL THE PLAYING FIELD, ET AL., PETITIONERS,
v.
FEDERAL ELECTION COMMISSION
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,696 words, excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct. Executed on
December 11, 2020.

/s Rebecca L.D. Gordon_____
Rebecca L.D. Gordon
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
rebecca.gordon@arnoldporter.com
December 11, 2020

